<html>
<title> - CAPUANO AND PETTY NOMINATIONS</title>
<body><pre>[Senate Hearing 115-338]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-338

                     CAPUANO AND PETTY NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   To

CONSIDER THE NOMINATIONS OF DR. LINDA A. CAPUANO TO BE ADMINISTRATOR OF 
 THE ENERGY INFORMATION ADMINISTRATION, DEPARTMENT OF ENERGY; AND DR. 
     TIMOTHY R. PETTY TO BE AN ASSISTANT SECRETARY OF THE INTERIOR

                               __________

                            DECEMBER 5, 2017

                               __________
                               
                               
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-095 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c2b341b382e282f333e372b7538343675">[email&#160;protected]</a>         
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kellie Donnelly, Deputy Chief Counsel
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2
Risch, Hon. James E., a U.S. Senator from Idaho..................     3

                               WITNESSES

Petty, Dr. Timothy R., nominated to be an Assistant Secretary of 
  the Inte-
  rior...........................................................    15
Capuano, Dr. Linda A., nominated to be Administrator of the 
  Energy Information Administration..............................    21

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Adams, Dr. Barbara:
    Letter for the Record........................................    57
Cahill, Dr. Catherine F.:
    Letter for the Record........................................     5
California Waterfowl Association and Delta Waterfowl:
    Letter for the Record........................................     6
Cantwell, Hon. Maria:
    Opening Statement............................................     2
Capuano, Dr. Linda A.:
    Opening Statement............................................    21
    Written Testimony............................................    22
    Responses to Questions for the Record........................    52
Family Farm Alliance:
    Letter for the Record........................................     7
Idaho Water Users Association, Inc.:
    Letter for the Record........................................     9
Kempthorne, Hon. Dirk:
    Letter for the Record........................................    58
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Water Resources Association:
    Letter for the Record........................................    11
Pacific Northwest Waterways Association:
    Letter for the Record........................................    59
Petty, Dr. Timothy R.:
    Opening Statement............................................    15
    Written Testimony............................................    18
    Responses to Questions for the Record........................    42
Public Lands Council and the National Cattlemen's Beef 
  Association:
    Letter for the Record........................................    12
Risch, Hon. James E.:
    Opening Statement............................................     3
Tehama-Colusa Canal Authority:
    Letter for the Record........................................    13
USGS Coalition:
    Letter for the Record........................................    60

 
                     CAPUANO AND PETTY NOMINATIONS

                              ----------                              


                       TUESDAY, DECEMBER 5, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, welcome everyone.
    The Committee will come to order.
    We are here to consider two nominations this morning: Dr. 
Linda Capuano, to be the Administrator of the Energy 
Information Administration (EIA), and Dr. Timothy Petty, to be 
Assistant Secretary of the Interior for Water and Science.
    Dr. Petty is a friend. He is a trusted advisor to many of 
us. We have benefited from his expertise on both water and 
science issues for quite some time. He is Senator Risch's 
Deputy Legislative Director. He has also served as a 
Legislative Assistant covering many issues that come before 
this Committee, including the Western Water and USGS issues 
that will be part of his portfolio at the Department of the 
Interior (DOI).
    When Dr. Petty is confirmed it will actually mark his 
return to the Water and Science hallway at Interior. That is 
because he worked there during the Bush Administration as a 
Deputy Assistant Secretary and for a time as the Acting Head of 
the Office for which he is now nominated. Dr. Petty is very 
well qualified and, I think, an excellent choice for this 
position.
    I look forward to filling out Secretary Zinke's Water Team, 
and I recognize that having a team of professionals in place at 
Interior on these issues is important to many on our Committee, 
not to mention millions of Americans living out in the West.
    There are a lot of good things that we can say about Dr. 
Petty, but I would be remiss if I did not acknowledge his 
connection to my home state. He earned his Ph.D. from the 
University of Alaska, Fairbanks. Terrific. I am sure we can all 
agree on him and his qualifications, but certainly his choice 
of doctoral programs clearly demonstrates his excellent 
judgment.
    [Laughter.]
    We acknowledge that.
    We will also consider the nomination of Dr. Linda Capuano 
to be the Administrator of the Energy Information 
Administration at the Department of Energy. Dr. Capuano has 
broad experience in the energy and technology industries. She 
has held senior positions at a number of companies and co-
founded a startup venture that commercialized ceramic 
superconductor technology. Dr. Capuano is currently a Fellow at 
Rice University in the Baker Institute for Public Policy Center 
for Energy Studies. She is also on the faculty of Rice's 
Graduate School of Business. Her distinct qualifications and 
robust work history make her a good fit to be at the helm of 
EIA as we move toward American energy dominance.
    I welcome you both to the Committee and thank you for your 
willingness to serve our nation.
    It would certainly be my hope and intention to move the 
nominations quickly, reporting you from the Committee, 
hopefully, as soon as next week. I would hope to confirm you 
both before Christmas, along with the other well-qualified 
Interior nominees who have been stuck on the Senate calendar 
now for several months, far longer than their predecessors in 
the previous Administration. We want to try to get these 
processed as soon and as expeditiously as we can.
    Again, thank you both for being with us this morning. We 
will look forward to your comments.
    I will now turn to Senator Cantwell for her comments this 
morning.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    The two nominations before the Committee this morning are 
important because Dr. Petty and Dr. Capuano, if confirmed, will 
represent and be responsible for agencies where we depend on 
sound science and reliable data.
    Public policy needs to be based on sound science and honest 
information. Policymakers can draw different conclusions from 
the facts, but they should never have the facts distorted or 
manipulated to justify policy choices.
    It is vitally important that the scientists and economists 
in the Department of the Interior and Department of Energy 
remain independent and the integrity of their work be protected 
from partisan ideology. That is why the two nominations we have 
before us this morning are so important.
    The Assistant Secretary of Water and Science is responsible 
for overseeing the Geological Survey which is one of the 
premier science agencies in the Federal Government. The 
Geological Survey provides the nation with science about water, 
energy, minerals and other natural resources, about floods, 
fires, earthquakes, volcanoes and other natural disasters, 
about the health of our ecosystems and our environment and 
about climate change. It is essential that this important work 
continue and that the scientists who do it are protected from 
the public interference and that their work inform policymakers 
rather than the other way around.
    In addition, the Assistant Secretary of Water and Science 
oversees the Bureau of Reclamation which grew out of the 
Geological Survey. It is the nation's largest water supplier 
and the second largest producer of hydroelectric power. It 
provides water to millions of our citizens and millions of 
acres of our farm land that produce much of our food.
    The job of the Administrator of Energy Information 
Administration is no less important. The Energy Information 
Administration was established in the Department of Energy to 
collect, analyze, evaluate and disseminate data about our 
energy resources and production, demand and the technology 
needed to manage our energy needs for the future. It also 
collects energy pricing data needed to protect consumers and 
ensure the integrity of competitive energy markets.
    Simply put, the two nominees before us this morning have 
each been nominated to lead premier, information-gathering 
agencies in their departments. I am pleased that both are 
highly qualified and have great professional experiences.
    I look forward to hearing from them on how their views on 
these agencies and their oversight will add to those comments I 
just mentioned on science and the independence and integrity of 
those agencies.
    I welcome both the nominees and their families and friends 
here today, and thank you for your willingness to serve.
    The Chairman. Thank you, Senator Cantwell.
    Senator Risch, I would invite you to provide comments 
regarding Dr. Petty.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you, Madam Chairman.
    It is bittersweet to do this, because Tim has been an 
integral member of our team.
    Tim and Elaine--Elaine is here and I am sure Tim will 
introduce Elaine when we start--have been important to my 
office for the almost decade that I have been here.
    Tim has had a distinguished career in public service and is 
exceptionally qualified to serve as the Department of the 
Interior's Assistant Secretary for Water and Science.
    To those of us, and there's a lot of us in various offices, 
that do know Tim, who he has worked with, we recognize he has a 
deep understanding of the complex nexus of water and science. 
In fact, when he was working on his doctorate, he used the 
Boise River--which is a river system that flows directly 
through the capital city and which has had a history of 
flooding over the years and has a dam system now on it--he used 
this particular river to study predictability of potential 
flooding and used it for part of his peer reviewed journals for 
his doctorate.
    Tim has also initiated and spearheaded the interest in many 
of the various Senate offices, even though he worked for me, of 
using geospatial mapping for a myriad of purposes, including 
mapping forest fires, fish and wildlife management, dam 
effectiveness and other resources. This geospatial mapping 
information has added to our already existing statistical 
analysis giving Senators a deeper and better understanding of 
their states.
    Prior to joining my office, Tim served as Acting Assistant 
Secretary and Deputy Assistant Secretary for Water and Science 
at the Department of the Interior under President George W. 
Bush, as you have noted Madam Chairman, and did an exceptional 
job there. He will be returning to that.
    Previously, Tim worked in the private sector for more than 
10 years in California and Indiana as a geologist and a 
hydrologist.
    He earned a Ph.D. from the University of Alaska and, Madam 
Chairman, I think you properly note that the University of 
Alaska has an outstanding program for the discipline that he is 
interested in.
    Working with Tim for these years, I am confident that he 
will approach each issue that comes before him with the same 
thoughtfulness and deliberate consideration that I have seen 
firsthand. Although I really hate to lose Tim, I mean that 
sincerely, I know that the Department of the Interior and the 
United States of America will benefit from his experience and 
expertise at the agency. I commend him to the Committee and to 
the Senate.
    Madam Chairman, I would like to have introduced for the 
record some communications from a number of organizations that 
are supporting this, the National Water Resources Association, 
Idaho Water Users Association, California Waterfowl, Delta 
Waterfowl, the Tehama-Colusa Canal Authority and the University 
of Alaska, Fairbanks, all of whom are supporting the 
nomination.
    [Laughter.]
    The Chairman. They will certainly be incorporated as part 
of the record, and we will put an asterisk next to the one from 
the University of Alaska, Fairbanks.
    [Laughter.]
    Senator Risch. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Risch.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. At this time, I would ask that you both rise. 
The rules of the Committee which apply to all nominees require 
that they be sworn in connection with their testimony. So now 
that you have risen, please raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    [Both answer, I do.]
    The Chairman. Before you begin your statements, you may go 
ahead and be seated, I will ask you three questions addressed 
to each nominee before the Committee.
    Will you be available to appear before this Committee and 
other Congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    [Both answer, yes.]
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    [Both answer, no.]
    The Chairman. Are you involved or do you have any assets 
held in blind trusts?
    [Both answer, no.]
    The Chairman. Okay. At this point in time I would ask each 
of you to provide the Committee a little bit of your background 
as well as the opportunity to introduce any family or strong 
supporters you may have with you. We certainly encourage that 
as well.
    Dr. Petty, we will begin with you, if you would like to 
proceed.

STATEMENT OF DR. TIMOTHY R. PETTY, NOMINATED TO BE AN ASSISTANT 
                   SECRETARY OF THE INTERIOR

    Dr. Petty. Thank you Chairman Murkowski, Ranking Member 
Cantwell and obviously, the distinguished members of this 
Committee.
    I also want to thank you, Senator Risch, for your kind 
introduction, but more important, even your leadership and 
service to the State of Idaho and to the United States. You 
have been a real leader to me and to many.
    It is a distinct honor and a privilege to appear before you 
today as President Trump's nominee to serve the American people 
as Assistant Secretary for Water and Science at the Department 
of the Interior. I wish to thank Secretary Zinke for his 
support and confidence in this position.
    I would like to take a moment and acknowledge my wife, 
Elaine Petty, here behind me, and actually, one of my four 
siblings, Pam, who is also here and traveled from Indiana to be 
here with me today. I would also like to just mention and thank 
a lot of my friends and colleagues who are here with me as 
well, who have been a huge support in insight for me for these 
many years, who are also joining us today.
    So if I may, I was born and raised on a family farm in 
Grant County, Indiana. I am proud to be the son of Esther and 
Morris Petty. My father, a farmer and a large animal cattle 
breeder, was killed in an automobile accident when I was but a 
young individual, and my amazing mother raised five of us on 
the family farm.
    Working on the family farm, cultivating agricultural 
fields, harvesting fall crops, milking cows, bailing hay and 
watching the growth of life all around me was fundamental in 
preparation for my entire career. My mother raised all of us 
kids with strong family values, a solid work ethic, genuine 
integrity, a high commitment to education and a belief in God.
    I was inspired to study Earth science from a young age. Our 
farm was bordered by an important river and watershed in the 
northeastern part of Indiana and the water fascinated me. A 
stone quarry and gravel pit was also on our property which also 
created the love for geology at an early age as well.
    This interest led me to pursue a Bachelor of Science degree 
in Geoscience at Purdue University. I then worked in Indiana, 
California and abroad as a staff geologist and hydrogeologist, 
learning the trade of ground surveying, mapping, surface and 
sub-surface hydrology, earthquake investigation, groundwater 
contamination as well as water quality research.
    After working in the private sector, I joined the staff of 
the Senate Republican Conference, under two consecutive 
Chairmen, Senator Connie Mack of Florida as well as Senator 
Rick Santorum of Pennsylvania. During that time, I also earned 
a Master's Degree in Business from the University of Maryland 
to help hone my management and technology skills.
    While still working in the Legislative Branch, I was tapped 
to be the Deputy Assistant Secretary for Water and Science 
under and with Secretary Kempthorne.
    At DOI, I supported the leadership of the U.S. Geological 
Survey and the Bureau of Reclamation. This included providing 
oversight in policy and technical review of programs that are 
so vital, including stream gauge, irrigation water demand, 
ground monitoring, earthquakes, volcanoes, geospatial mapping, 
just to name a few.
    Also, I want to highlight that Secretary Kempthorne also 
designated me at that time at DOI to represent several groups 
including the Executive Principal to the Gulf Coast Hypoxia 
Task Force as well as the DOI principal review team leader for 
the Interagency Panel for Climate Change.
    At the end of the Bush Administration, I returned to the 
Legislative Branch to work for Senator Risch. Senator Risch was 
so kind to outline so many of those different areas, but while 
also working with him here in the Senate, I received my Ph.D. 
in Water Science and Policy at the School of Engineering and 
Mining at the University of Alaska.
    Together, I believe my experience and education has 
prepared me for this position to effectively serve the American 
people. I commit myself to provide the best-informed advice 
possible for Secretary Zinke. I will listen to and work with 
the Committee and Congress in these areas.
    Chairman Murkowski, Ranking Member Cantwell and members of 
the Committee, I thank you again for the consideration of my 
nomination. Throughout my time in the Senate, I have had the 
privilege of working with virtually every member on the 
Committee and more specifically, the staff, in a good faith 
effort to build consensus and workable solutions on these 
issues before us.
    If confirmed, I look forward to continuing those efforts as 
we pursue the common goal of securing American water and 
science future. I look forward to answering any of your 
questions.
    [The prepared statement of Dr. Petty follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Petty.
    Dr. Capuano, welcome.

      STATEMENT OF DR. LINDA A. CAPUANO, NOMINATED TO BE 
     ADMINISTRATOR OF THE ENERGY INFORMATION ADMINISTRATION

    Dr. Capuano. Thank you.
    Chairman Murkowski, Ranking Member Cantwell and 
distinguished members of the Committee, it's an honor and 
privilege to appear before you as the nominee for Administrator 
of the Energy Information Administration.
    I'm grateful to the President and to Secretary Perry for 
their confidence in trusting me with this important assignment.
    EIA is the statistical and analytical agency of the 
Department of Energy. It collects and disseminates a wide range 
of energy information covering energy production, stocks, 
demand, imports, exports, prices, technologies and emissions. 
As a researcher and analyst, I appreciate the importance of 
EIA's independent role in providing unbiased information and 
analysis to inform policymakers, markets and members of the 
public in making informed energy decisions across the public 
and private sector.
    If confirmed by the Senate, I will bring to the position 
the experience of a career that began with applying materials 
science and engineering to products in computer memory, 
semiconductors and power units and evolved to a focus on energy 
in the electricity and petroleum sectors.
    I've also spent my career planning for and managing change. 
The rapidity that which technology is changing, everything from 
the production of oil and gas to the integration of distributed 
generation including storage technologies and microgrids, is a 
challenge for EIA that I would willingly embrace.
    I understand the important role that all of our fuels play 
in delivering energy to consumers. I understand this Committee 
has had specific requests of EIA, an analysis of energy and 
financial markets, energy consumption surveys and expanded 
coverage of distributed generation.
    If confirmed, these programs would remain a priority and I 
would work closely with the Committee on these and other 
matters.
    Thank you and I look forward to answering your questions.
    [The prepared statement of Dr. Capuano follows:] 
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Capuano.
    We will begin with five-minute rounds so we may have an 
opportunity for a second round for folks, if they are so 
inclined.
    Dr. Petty, let me start with you.
    I talk a lot in this Committee about the growing dependency 
that we have in this nation when it comes to minerals. When I 
say dependency, it is a dependency on outside sources.
    Last year the United States imported 100 percent of 20 
different minerals and at least 50 percent of another 30. I 
have likened it to the situation that we were in some years 
back when we were always talking about our reliance overseas 
for oil and how that made us vulnerable as a nation from an 
energy security perspective but also from a national security 
perspective.
    We are doing much better on the oil side but, in my view, 
we are going in the wrong direction when it comes to mineral 
security. Can you speak, just briefly, to the role that you 
believe that USGS can play in our efforts to lessen that 
dependency and whether you think that the agency, USGS, 
requires additional statutory authority that might be helpful 
or necessary to address this?
    Dr. Petty. Yes, thank you, Senator.
    Absolutely. Your opening comments, specifically on 
minerals, is really a critical aspect, both obviously, for 
Alaska in working these many years, even with the State of 
Idaho, critical minerals are in both of these locations.
    With USGS being able to be the principle gathering of that 
information on those specific type of minerals, it is critical 
that we give full support to the U.S. Geological Survey in 
these priorities.
    I've been here for many years of the briefings that have 
actually taken place in this hearing room and with the 
testimonies that the different experts from the U.S. Geological 
Survey, who have come to this specific Committee, highlighting 
the importance and gathering that information.
    It is up to, obviously, the Committee to continue giving 
direction and support to how the U.S. Geological Survey can 
support each one of the individual states and members, as well 
as this whole country in those important value of those 
minerals.
    So I look forward to working with you and your staff as we 
continue to pursue exactly how we need to get better data to 
this Committee, specifically, so that we can support the 
decisions that you'll need to make into the future.
    The Chairman. Thank you.
    Dr. Capuano, you mentioned the independent role of EIA and 
the fact that it is held out to be this unbiased arbiter, if 
you will, of data. I know this Committee certainly looks to the 
information that comes from EIA and we want to be able to rely 
on, not only its accuracy, but really, a very unbiased view.
    I think it is fair to say that when you have political and 
policy questions that come together, there can be great 
discussions about whether or not there is some bias that is 
brought to it; however, when we are looking at baseline 
predictions of future energy markets and how different 
regulatory environments or different legal scenarios might 
change that baseline, this job, working within EIA, becomes 
more than a little bit complicated.
    Basically what I am looking for this morning is the 
assurance that your work within EIA will be one that keeps us 
from the politicization or the bias that one can see. I believe 
the EIA needs to maintain that truly independent role, and I 
would like for you to speak to that.
    Dr. Capuano. If appointed to this position, I will bring 
the years of experience I have in technology training and 
sorting out issues around data versus opinion. And so, I am 
very committed to working with EIA to make sure that the data 
is high quality, that it's credible and that it is not biased. 
And I'll just do my best to work to do that.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Dr. Petty, welcome. I'm sure the 
Boilermakers are very proud of you.
    [Laughter.]
    Regarding the Yakima Basin project, I think you have 
probably had a chance, just because of its regional 
significance, to get familiar with that. It is very integrated 
in its planning. Do you support that project and making sure 
that it gets funded?
    Dr. Petty. Yes, Senator Cantwell, absolutely.
    I look forward to working, obviously, with you, 
specifically. I have been working on multiple years on that 
specific water project, working with your staff which is a 
critical part into the part three section of where we're at now 
in that specific project.
    As we move forward, the Bureau of Reclamation has been up 
here on numerous occasions to testify of what has been taking 
place there, interacting with Senator Risch specifically. What 
is important is how the State of Washington has actually 
stepped up in a huge way in this project as well, and I think 
there's some really good capabilities there for us to continue 
to develop and working with you on that and your staff.
    Senator Cantwell. So you support continued funding?
    Dr. Petty. Yes, continued with Reclamation's 
recommendations as well.
    Senator Cantwell. I think it is a great example of where we 
need to go on a problem that is not going away.
    Dr. Petty. Right.
    Senator Cantwell. By that I mean, I think it is a great 
example of where we need to go on other projects across the 
nation to more quickly expedite our response to drought 
conditions and things that we are facing.
    So----
    Dr. Petty. Yes.
    Senator Cantwell. I look forward to working with you on 
that.
    Dr. Capuano, on energy information, do you think EIA needs 
to analyze energy future contracts and commodity swaps and 
derivatives and how they affect the day-to-day oil price?
    Dr. Capuano. That's a really good question.
    It's a very complex issue and as I move, you know, if I am 
appointed to this position, I will spend time trying to 
understand the details of that, but again, our role in EIA 
would be to provide the data that would be necessary to be able 
to do that kind of analysis.
    Senator Cantwell. If you could take a look at that. This is 
language that we have passed out of the Senate and so, we think 
it is----
    Dr. Capuano. I commit to take a look at it.
    Senator Cantwell. Yes, that would be great, and you can 
give us an answer on it.
    It is very important that our energy markets are properly 
policed, and I know you mentioned distributed generation 
several times in your comments. That's great. We have 
definitely seen a lot of shenanigans in the energy market and, 
hopefully, we will continue to have a strong FERC that plays an 
oversight role, that polices them in a proper way. But at the 
same time, you need information and oftentimes the kinds of 
activities that we can see in manipulation you can see right in 
the energy data. That's why it is so important that you 
continue to play that oversight role in an important way.
    So, to me, you need to collect information on a fully 
integrated financial market so that you understand the impacts. 
We had this for a long discussion in the ENRON crisis about how 
much future contract price affected the spot price market as 
well.
    Of course, during that time period there was unbelievable 
manipulation and it consequently caused great havoc. Senator 
Risch and I were representing utilities and authorities that 
had to pay hundreds of millions of dollars in extra fees that 
we never should have paid and had to bail out California when 
we probably never should have had to. I don't think BPA ever 
got compensated for the amount of money that they ended up 
paying to California during the crisis. It wreaked havoc on the 
West Coast, and we never want to see it again. So having good 
policing on the energy information is critical to us.
    Dr. Capuano. I do look forward to having more conversations 
on that topic and understanding what EIA can provide that you 
could use then.
    Senator Cantwell. Great.
    We will get you the language that passed out of the Senate.
    Thank you so much.
    The Chairman. Thank you, Senator Cantwell.
    Senator Risch.
    Senator Risch. Senator Cantwell, thank you for reminding me 
how much fun it was to pay a lot in California.
    [Laughter.]
    Madam Chairman, I really do not have any questions since I 
have spent so much time with Tim, and I want to give everybody 
the opportunity to have questions.
    Tim, I wonder if you could take just a couple minutes and 
talk about some of the work that you have done on the Boise 
River that is so important to the people in the Treasure Valley 
in Idaho while you have been on my staff?
    Dr. Petty. Thank you, Senator, absolutely.
    It has been an amazing experience and privilege to look at 
and focus in on the Boise River, working with the Army Corps of 
Engineers and, obviously, the number of dams that the Bureau of 
Reclamation holds, specifically, on that dam.
    It's a combination of how do you balance the needs for the 
water irrigators in all the agricultural components around the 
Boise complex and the Boise project as well as balancing flood 
control. And that is so much of what the West is about. It's a 
high plain desert.
    Once you put water on that amazing soil it produces an 
incredible amount of productivity agriculturally, but yet at 
the same time, it's the capital city of our state, of the State 
of Idaho. That combination is always in a complex way where 
you're dealing with those years of even drought and years of 
trying to manage to hold those specific areas of periods of 
flood.
    That city is always on pins and needles during periods when 
there is significant spring rain, because you also have to rely 
on other agencies in that area of snow accumulation, how to 
manage it and how to work together. That is an amazing part of 
what both Governor Otter and yourself, with your years of 
experience, as you're working with all the agencies to really 
move forward in those specific focus on both water service as 
well as flood control which ties in both why USGS's water 
center there is in Boise but also the headquarters of the 
Northwest Bureau of Reclamations headquarters are there as well 
in Boise. So it really creates a nexus for a lot of important 
data and information so that both local, state and federal can 
work together.
    Senator Risch. Thanks, Tim.
    I yield back my time, Madam Chairman.
    The Chairman. Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    This is to both Dr. Petty and Dr. Capuano.
    You have both been nominated to lead agencies where 
independent, scientific research is very critical to the 
mission of those agencies. Are both of you committed to 
scientific data to inform policy actions?
    Dr. Petty. Yes, I am.
    Dr. Capuano. Yes, I am.
    Senator Hirono. Again, to both of you, is climate change 
real? Yes or no? You are scientists. Is climate change real?
    Dr. Capuano. The EIA provides unbiased data to inform those 
kinds of discussions. They're very complex and the environment 
is very important. As the Administrator of EIA, if I am 
appointed, it would not be wise for me to take a position on 
any particular issue, but to make sure that accurate and 
credible data is provided so those issues can be debated and 
discussed.
    Senator Hirono. So you are saying that you sit here and you 
tell us that you do not know whether climate change is real or 
not?
    Dr. Capuano. No, I said that it would be inappropriate for 
me, if I was appointed as EIA Administrator, to take a position 
on such a highly debated topic.
    Senator Hirono. Do you acknowledge that most of the 
scientific community have said that climate change is real and, 
in fact, the Department of Defense has testified that climate 
change is what is a tremendous issue for them impacting our 
national security?
    Dr. Capuano. If you're asking if I'm aware of the debate, 
yes, I am very aware of the debate.
    Senator Hirono. And that most of the evidence in the 
scientific community says that climate change is real?
    Do you acknowledge----
    Dr. Capuano. Again, I'm aware that there is a lot of debate 
on that. There are those kinds of statements out there. But 
again, for me to take a position would introduce a bias that 
would hinder me as the Director of----
    Senator Hirono. Excuse me, you both said that you believe 
that science, scientific research, should inform. This is not 
about bias. We are relying on both of you to provide us with 
scientific data, not political positions, that would inform our 
decisions.
    Dr. Petty, what is your view? Is climate change real?
    Dr. Petty. Yes, Senator, I want to just make sure that it's 
clear that climate change is real.
    Senator Hirono. Thank you.
    Dr. Petty. And----
    Senator Hirono. Should our policies reflect that fact, that 
climate change is real?
    I will ask you, Dr. Petty.
    Dr. Petty. Yes, I think it's very important that we get the 
scientific data in the hands of decision-makers.
    Senator Hirono. You are both going to be working in an 
Administration where the President denies the reality of 
climate change and I would like to know, particularly from you, 
Dr. Petty, since you at least acknowledge that climate change 
is real, how would you react if you felt political pressure to 
suppress data or shape results to fit a political agenda, i.e., 
that climate change is not real? Can you give me an example of 
when, in your public life, because you have worked for a number 
of political people as well as Administrations, when in your 
professional life you have stood up to political pressure to 
put forth what you believe is science?
    Dr. Petty. Yes, Senator, and thank you for that question.
    I think it's important that we realize that in the science 
community and as a scientist and looking at peer review that 
it's important that the science is clearly communicated in that 
area of resources that it then can be provided to the specific 
decision-makers.
    So----
    Senator Hirono. Can you describe a time in your public life 
or a time that you have worked in various political offices 
where you have stood up to political pressure? Because that is 
part of your doctoral research, scientific knowledge into 
political action. You have a commitment to science to inform 
our policy decisions. When have you stood up to political 
pressure? Can you describe a time when that happened with you?
    Dr. Petty. I can give you some examples of where I have 
seen and worked with it specifically, working at the University 
of Alaska, Fairbanks, specifically on the Tanana River which 
has been part of my research where you're looking at different 
years at different times there is impact that takes place. As 
you build on those different research areas you're always 
challenged with those different scientific review.
    And so, for me to be able to respond back to different 
examples is in the science community there are different 
reports that come out and you have to interact with those 
science communities because the scientific method and science 
of that is important to facilitate.
    Senator Hirono. Are you saying that you have always stood 
up to political pressure that your position is that you stand 
by your scientific research and that is what you intend to do 
with this Administration?
    Dr. Petty. I would very much want to commit to you that 
it's important that the science community is also heard and 
that their research that they're putting forward is also heard 
on both communities that are supporting in those different 
research areas.
    Senator Hirono. Well, with this Administration your voice 
is going to be very, very important and it's going to need to 
be very loud. I look forward, should you be confirmed, to hear 
what you have to say.
    Dr. Petty. Thank you, Senator.
    Senator Hirono. Thank you very much. I will have further 
questions for our witnesses.
    The Chairman. Thank you, Senator Hirono.
    Senator Hirono. Thank you.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    And thank you to Dr. Capuano and Dr. Petty for your 
service. Congratulations on your appointments. Thank you for 
being here today.
    Dr. Petty, I have to admit, while I can forgive your 
association with Senator Risch and the work in his office, I do 
not know that I can ever forgive any association of water work 
in California. As a Coloradan, I am very nervous about that, 
so--
    [Laughter.]
    But thank you for your willingness to serve.
    Dr. Capuano, of course, the University of Colorado in your 
background. It is great to see a fellow University of Colorado 
Buffalo before the Committee.
    So, thank you both.
    In your testimony you talked about the work of the Bureau 
of Reclamation. Obviously something very important to us in the 
West, particularly in Colorado, when it comes to water storage 
and delivery.
    I want to talk a little bit about how vitally important a 
project the Arkansas--the Bureau of Reclamation has in Colorado 
called the Arkansas Valley Conduit affecting about 50,000 of my 
constituents. This is a 130-mile pipeline with spurs that would 
serve as many as 40 communities, over 50,000 people East of 
Pueblo, Colorado. It is a project that would deliver filtered 
water to an area that is facing economic challenges and 
certainly water quality challenges. We have to make sure that 
we are supplementing existing water supplies because of 
increasing compliance issues from the federal and state 
governments regarding salinity, radionuclide contaminations and 
fresh groundwater availability.
    This project, the Arkansas Valley Conduit, was authorized 
by Congress in 1962. President Kennedy actually came to Pueblo, 
Colorado, as part of this effort. It was not until 2009 where 
we changed some of the legislation surrounding the Arkansas 
Valley Conduit and the cost share agreements to a 65/35 split 
that allowed this project to move forward.
    In 2017, Reclamation, as well as the Southeast Colorado 
Water Conservancy District, along with Pueblo Water, began 
discussions about a plan that would help change the layout of 
the pipeline design, a new concept that they came up with that 
would dramatically decrease the cost of the project. It is 
basically moving the pipeline a little bit further down the way 
so that they could hook up in to Pueblo Water and cut off some 
of the distance the pipeline would be required to go.
    So, in instances like this where project sponsors 
successfully pitches a partnership that successfully reduces 
and drastically reduces the timeline of the cost of the 
project, can I get your commitment that Reclamation will give 
projects like the Arkansas Valley Conduit fair consideration 
that it will be done, that you will do everything you can to 
make sure the regulatory administrative processes do not 
endlessly bog down projects like this and that you will do what 
you can to make the case on the value and the advanced timeline 
at OMB?
    Dr. Petty. Yes, Senator, absolutely.
    I want to make sure that it's clear. I was here in the 
hearings when you asked the same exact questions with Secretary 
Zinke as well as the nomination and now confirmed Deputy 
Secretary Bernhardt. And so, both of them have made sure that 
you and your staff will be dealing with those specifically 
individually.
    I think Secretary Zinke has put together a great team in 
the water and science hallway, working with Commissioner Burman 
on these specific issues. We look forward to, obviously, 
working with you and your staff, specifically, to make sure 
that we can bring the full support of Reclamation into those 
specific areas and projects.
    Senator Gardner. Thank you.
    Clean, abundant, affordable water, obviously a promise 
Congress made in 1962. I would like to see that move from----
    Dr. Petty. Absolutely.
    Senator Gardner. ----pipe dream to pipeline and make sure 
we get this done.
    The other issue I want to talk to you about, Dr. Petty, is 
in August 2015, as you know, EPA triggered a three-million-
gallon spill of acid mine drainage into the Animas River in 
Southwestern Colorado. This area of Colorado is now a superfund 
site. EPA is responsible for remediation of the mines within 
the boundaries of the superfund listing.
    There are over 160,000 inactive or abandoned mines 
throughout the country and many in the West. If you look at the 
Bureau of Land Management within the Department of Interior, 
48,000 inactive or abandoned mine sites exists. The Forest 
Service has over 40,000 inactive, abandoned mines on land that 
it manages. You can imagine, if just 10 percent of these were 
creating environmental damage or harm to the environment, the 
sort of impact that that would have and the enormity of the 
challenge that we face.
    If you go back to the 106th Congress, you can start to see 
legislation that has been introduced dealing with Good 
Samaritan legislation. Senator Domenici, Senators Salazar, 
Allard, Udall, and a number of others, Ben Nighthorse Campbell, 
have worked on Good Samaritan legislation to address these 
inactive and abandoned mine sites.
    During the 109th Congress, this Committee reported out a 
bill that was co-sponsored by Senator Allard and Senator 
Salazar.
    Given your expertise in hydrology, the work that you will 
be doing at Interior, you are going to hold some Interior 
Department oversight ability and be over our land management 
agencies as well.
    Can I ask your opinion of Good Samaritan legislation, where 
you think it goes and what we need to do?
    Dr. Petty. Yes, Senator, another great point.
    Working with that--I know you have a long history, even 
with Leadville and these different areas that specifically have 
mine issues that actually translate right into specific areas 
of water. So I look forward to specifically working with you on 
this 2015 impact that, obviously, has impacted multiple 
downriver communities because those are the direct impacts that 
come out of that.
    Just based on our time and our effort, I really do look 
forward to sitting down with you, specifically, your staff, 
which I've been working with for multiple years now on how we 
can better work together and work with the Committee on EPW on 
behalf of Reclamation on these specific issues.
    Senator Gardner. Great. Thanks, Dr. Petty, Dr. Capuano. 
Thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Heinrich.
    Senator Heinrich. Let me start, Dr. Petty, by thanking you 
for your candid answer with regard to climate change science.
    Dr. Capuano, is gravity real?
    Dr. Capuano. Pardon? I didn't hear that.
    Senator Heinrich. Is gravity real? I mean, it is just a 
theory.
    [Laughter.]
    Dr. Capuano. Yes. Gravity is real. Yes.
    Senator Heinrich. We can't see it, but the data would 
suggest it is real.
    Dr. Capuano. Yes.
    Senator Heinrich. What does the preponderance of the data 
suggest with regard to climate change?
    Dr. Capuano. So, the EIA does present for the data around 
greenhouse gas emissions that is used to debate on both sides 
of that, that issue. And we all know that it is very important 
to protect the environment and that we need to work toward 
that.
    But again, putting me into the position of taking a side on 
such a hotly debated issue would introduce bias as a leader of 
the EIA. And so, as an administrator I would have to refrain 
from answering that question.
    Senator Heinrich. Well, let's talk about bias then.
    Dr. Capuano. Yes, okay.
    Senator Heinrich. Because the EIA has consistently and, 
actually, spectacularly underestimated growth in clean energy 
as well as growth in the gas sector.
    For example, solar generating capacity was 4,813 percent 
more in 2016 than the EIA predicted in 2006. As another 
example, EIA predicted that 6.5 gigawatts of new wind 
generating capacity would be installed between 2017 and 2030. 
We are already installing more than that every single year.
    The data and EIA's bias seem to have a chasm between them. 
Why do you think that is and what do you intend to do about it?
    Dr. Capuano. The EIA is committed to collecting and 
presenting high-quality, credible data. In the modeling, the 
modeling activities and the data that's used in the models and 
the assumptions are transparent so that as you compare the 
trends with the actual data you can see what's driving the 
deviation.
    As a technologist and with the years of experience that 
I've had, I am very committed to making sure that the data 
continues to be high quality, that accuracy is increased and 
that assumptions are improved. I'm highly committed to that. 
Independent of what the results are, meaning independent of 
what conclusion they lead you to, it is very important that the 
data quality continues to improve.
    Senator Heinrich. Do you think there is a problem at EIA, 
assuming that things will continue where they are rather than 
looking at where the trend lines are headed?
    Dr. Capuano. Allow me to separate that question.
    There are assumptions in the models that are used in order 
to create scenarios and are used in order to be the foundations 
of the trends.
    Senator Heinrich. I understand.
    Dr. Capuano. Those assumptions are always being looked at 
and always are--there is always room to correct those and 
improve those and look forward to conversations to do that.
    Those assumptions on the data that's entered into the model 
will lead to results. I don't see--I'm having difficulty with 
the discussion of where's the bias has entered--is inserted 
into that.
    Senator Heinrich. Well, junk in, junk out, right? I mean, 
that is what we all learn in school.
    Dr. Capuano. Well, the solution----
    Senator Heinrich. And so, if you get the assumptions 
spectacularly wrong, you will get data out the other end or a 
result out the other end that does not match up with the data 
in a sometimes-spectacular fashion. And I think garbage in, 
garbage out, as my----
    Dr. Capuano. Like quality in, quality out and the data 
that's collected by EIA is----
    Senator Heinrich. Do you think those predictions, the 
results that EIA has given to all of us, have been high-quality 
predictions?
    Dr. Capuano. I believe that the information that EIA gives 
you is high quality and it is credible and that the sources are 
identified and that they can be improved continuously as the 
source of data is improved.
    Senator Heinrich. That did not sound like a yes or no 
answer.
    Dr. Capuano. So, excuse me.
    Senator Heinrich. Yes.
    Dr. Capuano. If you would mind re-asking the question, I 
could probably do a yes or no, please.
    Senator Heinrich. Do you think the quality of the 
predictions that EIA has made to this Committee and to the 
public have produced good results, results that were----
    Dr. Capuano. EIA does not make predictions. What EIA does 
is it takes data and it models and it shows trends. I believe 
those are high quality based upon the available information.
    Senator Heinrich. Dr. Petty, you are so lucky today. I am 
out of time, so I am going to have to save all of my questions 
for you for the record.
    But thank you once again for being able to answer a 
question in a straightforward way.
    Dr. Petty. Thank you, Senator. I look forward to actually 
getting some time with you and your staff in the future.
    Senator Heinrich. Thank you.
    The Chairman. Thank you, Senator Heinrich.
    Senator Flake.
    Senator Flake. Thank you, Madam Chair, and thank you both 
for your willingness to serve.
    Yes, Dr. Petty, you have a lot of experience, obviously at 
DOI, that will come in handy in this position because you have 
the Bureau of Reclamation within your purview. I am interested 
to know your views on Colorado River water. I am glad Corey 
left the building here.
    [Laughter.]
    Can you describe your vision for the Bureau in helping 
craft Colorado River policy, particularly how you see the 
Bureau or interacting with basin state representatives?
    Dr. Petty. Yes.
    Well, Senator, thank you so much. I think that is a very 
important question, obviously, that you're working on, you have 
been working on. You've been working on it for many, many 
years. You have fabulous staff that understand this question, 
just dealing with the drought contingency that you're working 
through, trying to cooperate, obviously, building all the share 
takers. And also, obviously the new commissioner with Brenda 
Burman coming from your state. I think that the team that we've 
really put together, I look forward to being confirmed so that 
we can get specifically on your areas that we can work with you 
on how we're going to lay out, specifically, it has already 
been in the works with your staff and with the state in these 
specific areas.
    Senator Flake. Thank you.
    Specifically, with outstanding water rights claims, fixing 
these, it's obviously beneficial for all water users, not just 
tribes. The agency you will help supervise will play an 
important role here.
    Do you want to talk about the Bureau and USGS as it relates 
to Indian Water Settlements?
    Dr. Petty. Yes, Senator.
    It's very important that we continue to work through this 
Committee, specifically.
    A perfect example, obviously, for the State of Idaho as 
well, which we've been working on for multiple years with the 
success that we've had working with the Nez Perce tribe, but 
then the Coeur d'Alene as well as the Shoshone-Bannock tribes 
with water settlements are really important that we've been 
working on for years.
    I look forward to working, obviously, again, with your 
staff who fully understand the complexity of your state because 
I really do believe it becomes even specific region-by-region 
and area-by-area that you're trying to work through each of 
those water settlements on. So, I look forward to working with 
you, Indian Affairs at DOI, to work those through.
    Senator Flake. Great.
    There are a number of USGS institutions in Arizona. They do 
important work in research and data collection to support water 
management. These include the Grand Canyon Monitoring and 
Research Center in Flagstaff and the Arizona Water Science 
Center in Tucson. Can you give some sense of how you see the 
USGS's role in continuing to provide this kind of research and 
data collection?
    Dr. Petty. Yes, you know, Senator, there's almost 300 U.S. 
Geological Survey staff in your state that specifically works 
on very complex areas, obviously, the Grand Canyon, the Glen 
Canyon Dam, that has been a partnership with Bureau of 
Reclamation and USGS for years on studying everything from 
invasives to sediment transport to flora and fauna within those 
different regions as well as, obviously, the ESA impacts that 
are there.
    Those are a combination of working together to really build 
the science that comes back to that information for U.S. 
policymakers so people here on the Hill can move forward on 
what is the next step in the future of where we can go in 
putting in priorities for those specific areas.
    Senator Flake. Thank you so much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Flake.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    I am going to just return for a second to Senator 
Heinrich's question.
    The EIA releases annual projections of long-term domestic 
energy consumption and generation, its annual energy outlook. 
Now over the last few years a range of studies suggest that EIA 
has consistently overestimated oil and gas consumption and, as 
Senator Heinrich said, vastly underestimated the growth of 
renewables, especially distributed solar.
    A study just last week from MIT reiterated the concerns 
surrounding the fossil fuel projections. The EIA responded to 
such criticisms in late 2016, but the agency has not indicated 
yet how it plans to address these inaccuracies pertaining to 
renewables.
    I guess the question, more specifically than what Senator 
Heinrich asked, is will you commit to working to improve the 
modeling when it comes to renewable energy?
    Dr. Capuano. So, if I am appointed I will--this is a very 
hot issue. It is a very important issue, and I'm very aware of 
that. It has big economic implications for the United States 
and many people rely on the EIA data in order to do their 
analyses and make decisions.
    Senator Franken. Absolutely. I remember the propane----
    Dr. Capuano. Absolutely.
    Senator Franken. ----crisis.
    Dr. Capuano. Absolutely.
    Senator Franken. Which, you know, partly, and listen, you 
get things wrong sometimes.
    Dr. Capuano. Yes.
    Senator Franken. And you get things right.
    Dr. Capuano. Yes.
    Senator Franken. But on this one we are getting it wrong, 
consistently.
    Dr. Capuano. Yes. On a theoretical level improving 
assumptions, improving the types of data that go into the 
models, improving the models, are theoretical ways to improve 
the accuracy relative to actuals.
    I can commit, firmly, that if appointed to this position 
that I would be working very closely with EIA staff to 
understand the deviations and how to reduce that and how to 
improve it.
    I look forward to any kind of conversations that can help 
inform us on changes that might make the models more, track 
more with what the actuals are.
    Senator Franken. Well, thank you for committing to that 
because, of note, the scenarios in the Annual Energy Outlook 
focus on high and low fossil fuel resources and technological 
change, but there is no scenario focusing on high renewable 
growth.
    Do you agree that a scenario focusing on the quickly 
changing landscape of renewables could be a way to address some 
of these issues?
    Dr. Capuano. Yes, I'll acknowledge that looking hard at the 
scenarios and their effect on being able to inform people so 
that they can do the analysis that needs to be done is really 
important. And I commit to take a look at that.
    Again, but I'm not there yet. I don't know the details so I 
can't----
    Senator Franken. Okay, alright.
    In Senator Risch's Subcommittee later this afternoon we are 
going to be talking about energy storage and energy storage is 
becoming more pervasive around the world, but it is not well 
represented in the modeling done by EIA.
    In the 2017 Annual Energy Outlook the EIA committed to 
continuing to update and refine projections of technological 
change. Work that is especially important for energy storage as 
it becomes more ubiquitous and increasingly grid-connected. In 
particular, EIA committed to improving the representation of 
energy storage in future modeling work. Will you make model 
improvements a priority for energy, especially for energy 
storage?
    Dr. Capuano. Again, not being there, not being in the 
position yet, I am aware that the EIA is working on their 
strategy, renewing their strategy and I look forward to working 
with the EIA team and understanding their thoughts on this and 
their commitments. I will pay special attention to these issues 
of storage.
    Senator Franken. Because storage is a real game changer.
    Dr. Capuano. I understand, and I pay a lot of attention to 
those conversations.
    Senator Franken. Okay.
    Dr. Capuano. As a citizen, I do agree.
    Senator Franken. Dr. Petty, thank you for your answer on 
the USGS's on making a commitment to not subverting scientific 
analyses. I know that Senator Hirono asked you that, and thank 
you for your answer.
    Madam Chair.
    The Chairman. Thank you, Senator Franken.
    Senator King.
    Senator King. Thank you.
    Mr. Petty, can you commit that you will put aside anything 
you learned from Senator Risch when you were going through 
this?
    [Laughter.]
    Ms. Capuano, you were interviewed for this job. You went 
through a process, I presume. Did anyone ever ask you in that 
process your views on climate change?
    Dr. Capuano. I get asked that a lot.
    Senator King. Were you asked that question in the process 
of your being proposed for this position?
    Dr. Capuano. Actually, I don't--it may have come up. I'm 
sorry, I just, I'm trying to remember all the conversations 
I've had. It may have come up. If it did come up, I did not 
express an opinion on it.
    Senator King. Were you asked any questions about fossil 
fuels and the importance of fossil fuels to our energy future?
    Dr. Capuano. Well, I guess I would say that in the process 
of moving through the nomination and the potential appointment 
process, people have helped me and guided me through that 
process. I'm having trouble with the, you know, saying have I 
been asked my position on that, that was not the discussions 
around the process, so.
    Senator King. So no one in the process said, what are your 
views on climate change, or I think you said maybe they did, 
but you would have said I have no opinion? Seriously?
    Dr. Capuano. Okay.
    I'm trying to, you know, this process has gone on since 
February, so I'm trying to remember all the conversations 
honestly. The topics come up but the discussion has really been 
on what needs to be done in order to get confirmed and in order 
to complete the process.
    Senator King. But before you were being guided as to how to 
complete the process, somebody interviewed you to decide if you 
were the right candidate for this job.
    Dr. Capuano. I would say that the, you know, in the 
volunteering to serve, it's not an interview for a position.
    When you volunteer to serve during an Administration, 
there's discussions around your qualifications and discussions 
around your desire to have an impact, but I have not had 
discussions around what my position is and how that would 
relate to how I would execute the position, if I was appointed.
    Senator King. So is it fair to say that your testimony is 
that no one, when they were deciding whether to appoint you to 
this job, inquired about your position on climate change? Is 
that accurate?
    Dr. Capuano. No, I said that there have--that they may have 
inquired and I declined to take a position.
    Senator King. What is your position?
    Dr. Capuano. It would be inappropriate for me in, you know, 
in taking a position--if I complete this appointment to be EIA 
Administrator, if I'm successfully appointed to this position, 
it would be inappropriate for me to state a position on climate 
change.
    The data, you know, the data are available. EIA provides 
the data. In fact, it has the high majority of the greenhouse 
gas data that is used on both sides of the argument comes from 
EIA.
    Senator King. That is why I am asking you these questions.
    Dr. Capuano. Yes.
    However, I don't, you know, providing the data and drawing 
the conclusion, I leave the conclusions to the people that want 
to set policy or have a debate on the issue. If I enter the 
debate, it taints my independence and I cannot present myself 
as unbiased----
    Senator King. So your testimony is you have not entered 
this debate at all.
    Dr. Capuano. No, my--I have avoided this--no----
    Senator King. You are avoiding telling me, but my question 
is have you told anyone else in order to gain this----
    Dr. Capuano. No, I have not told anyone my position on 
climate change in order to gain the appointment. I can say that 
with confidence.
    Senator King. Well, that gets to the second question which 
is really, I consider your job one of the most important in the 
Federal Government because it is all about data and we cannot 
make good policy unless we have good data.
    I hope that your position which you have stated, which I am 
not necessarily disagreeing with, means that you will be 
absolutely straight on the data and that what worries me is 
that people whose job it is to present information data such as 
yourself or the head of the EIA not be tainted by the political 
desires of the people who you are reporting to.
    Give me your commitment on that.
    Dr. Capuano. You have my commitment that I will follow the 
data and I will--I have been fortunate not to have been 
pressured to take a position and I would not--and I do not 
intend to be pressured to take a position.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Dr. Capuano, I think you can tell from the questions, the 
inquiries here that each of us wants to see that the EIA 
continues to play that role of a very unbiased, a very much 
independent agency, and I hope that is where my colleagues are 
trying to go with this.
    I appreciate that because I do think if you were to say 
that ``this is my position,'' rightly or wrongly, there will be 
others in the future that will say, aha, that conclusion was 
reached through EIA because it has an Administrator who has 
taken such a position.
    It is a difficult place for you to walk because, I think, 
around here it is important that we be able to articulate where 
we come from on these issues. But again, you are being asked to 
head an agency that is, is a pretty analytical agency. And if 
it is not analytical and weighing evenly all the data that 
comes in, I do appreciate the recognition though that it is 
important that that data be good, solid, unbiased and, you 
know, not the garbage in, garbage out, but the good in, good 
out.
    So, let me ask you about the, just the data collection. 
There's an incredible amount that is collected out there. This 
is the world of big data today.
    But having said that, there comes a point where the EIA 
does not necessarily need to be expanding the amount of data 
that it collects. You have overlapping data requirements that 
come to other agencies whether it is other agencies within DOE 
or FERC, CFTC, the private sector also provides data about 
energy facilities and markets. You have some overlap that could 
create inefficiencies, that could create burdens.
    Can you speak just a little bit to the effort that I think 
is important to avoid duplicative, or perhaps, overlapping, but 
also to making sure that as we seek to have as much data as we 
need, we're not expanding it so far that perhaps we have 
additional cyber risks, intrusions into privacy. There is a 
border here.
    Dr. Capuano. So I can say that if I am appointed to this 
position that one of the first actions I would take is going 
through the strategic plan and understanding the priority of 
the objectives and then looking at how to achieve the 
objectives in the most efficient and effective way with the 
budget that we have. And so, while I don't know the details 
because I'm not there yet, that is the commitment I can make.
    The Chairman. Are you concerned when we talk about 
cybersecurity and these risks, can you speak to that aspect of 
it?
    Dr. Capuano. I am very concerned, but again, I'm not in a 
position to talk about the details because I have not, I don't 
know these details yet because I'm not part of EIA.
    I consider it a very important topic and it's something 
that we all know that we need to be working to improve and 
secure ourselves and that the EIA data, I am sure, has a role 
in that.
    And so, I really do look forward to going through the 
strategic plan and setting the priorities and looking for the 
balances that are required. And we all know there's never 
enough money to accomplish everything.
    Making very well thought out decisions on priorities and 
effectiveness is really going to be an important part of this 
role.
    The Chairman. We talk a lot in this Committee about 
cybersecurity. It is important on a host of different levels, 
but recognizing just the volume of data that EIA collects, some 
relating to critical infrastructure, other relating to data 
critical to well-functioning markets, I think it is important 
that cybersecurity be a high priority issue within the EIA and 
making sure that our critical infrastructure within the energy 
space is not compromised.
    Mr. Petty, I have one last question for you here relating 
to water infrastructure.
    We certainly recognize the need for water infrastructure, 
for hydropower and for flood control projects, to protect 
against drought. You mentioned stream gauges in Alaska. I 
continue to be astounded at how woefully inadequate our ability 
to just monitor or even get a baseline of what we have with our 
water resources.
    We have extraordinary water resources but when you have 
development in a certain area, before you proceed with that you 
need to have an understanding as to the adequacy of your water 
sources.
    In terms of water infrastructure and water management 
issues, how big of a priority do you see this in this new role 
that you have been nominated to fill?
    Dr. Petty. Senator, thank you so much for the question, and 
it is a priority.
    The infrastructure aspect that we really need to be looking 
at, even within this body, that even have had multiple hearings 
here, have specifically talked about surface, subsurface 
infrastructure, specifically with water, pertaining 
specifically to Alaska. It's a huge challenge because you are 
dealing with so much adverse, even conditions in climate that 
absolutely destroys gauges.
    And so, every year you're just dealing with the impact that 
takes place there. It is important that we still figure out the 
best way to gather that information and data, specifically, for 
the State of Alaska.
    I'm really confident in which is also under the U.S. 
Geological purview, which is remote sensing capabilities. The 
technology that continues to develop, obviously the importance 
of Landsat which also comes to this Committee on these 
different areas and issues.
    I really look forward to working with you and your staff on 
both sides of the aisle, specifically, on how we can continue 
to better gather information and data for infrastructure, 
infrastructure development as well with water, water quantity 
and water quality.
    The Chairman. I appreciate that, and I am pleased that you 
are eager to take on this position. I think, when I look at the 
issues that impact my state and the role that USGS plays 
whether it is with mineral security that we mentioned or 
hazards, we have our share of volcanoes and earthquakes and 
landslides and wildfires and flooding. USGS does considerable 
and important work there and then on the water side, again, 
very, very important.
    I appreciate you bringing your expertise to bear on this 
and look forward to working with you.
    Gentlemen? Senator Risch or Senator King, any further 
comments?
    Senator King.
    Senator King. Dr. Capuano, I am going to say a sentence I 
never thought I would say. You've got my vote by not answering 
my question.
    [Laughter.]
    I think that was exactly right, to not answer the question 
for the reasons the Chairman stated. And I thank her, I 
associate myself with her comments. As long as you did not 
answer that question to other people, which you have told me 
you did not, I think that is an appropriate position for 
someone who sits astride the data collection process.
    What I have found and why I think your position is so 
important, in my experience in public policy if we have a 
shared understanding of the facts, the data, public policy is 
fairly straightforward and usually easy to develop.
    When we don't have a shared understanding of the data or 
the facts, it's almost impossible. That is why what you are 
doing is so important at this moment in time as we are trying 
to make important, far reaching decisions about energy policy 
in this country. I just can't emphasize enough how important 
what you are doing is and your background. It looks to me like 
you were preparing for this job all your life, you just didn't 
know it.
    I just hope you will remember what you are doing is really 
important and, should there be efforts above you or from the 
side to influence what questions are asked, what data is 
presented, I hope you will resist them just as you did my 
question this morning.
    Thank you.
    The Chairman. Thank you, Senator King.
    I think that sums it up quite appropriately.
    Dr. Petty, Dr. Capuano, thank you, thank you both for being 
here this morning. Thank you for your willingness to serve.
    Again, as I mentioned in my opening, it is my intention to 
try to move both of your names before the Committee very 
quickly, hopefully so we can get things wrapped up before the 
end of the year. Both of these positions are important and 
necessary to Department of Interior as well as to the 
Department of Energy.
    Again, we thank you. With that the Committee stands 
adjourned.
    [Whereupon, at 11:19 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
